                                                                                                   I1
                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                       OFFICE OF INVESTIGATIONS
                                                                                                    I


                                                 CLOSEOUT MEMORANDUM
                                                                                                    I1
I
1   Case Number: 1-04-12-0045                                                                  Page:l of 1



             OIGreceived information fiom a complainant1that a    PI^ possibly fabricated the complai;pant9s
             educational credentials in an NSF proposal3.

            The investigation revealed that complainant's curriculum vitae was not submitted in the ,;
            proposal. During the investigation complainant stated that he never worked on the NSF award;
            however, the annual report attributed certain effort to the complainant.
                                                                                                         /I
             Further investigation, including reviewing complainant's performance appraisals, revealed that
             the complainant had, in fact, worked on the NSF award.

             Accordingly, this case is closed.




                                                                                                              li
    qSF OIG Form 2 (11/02)
